   AUDIT OF SERVICES PROVIDED
     AND OUTCOMES OBTAINED
FOR PARTICIPANTS ENROLLED IN THE
WIA DISLOCATED WORKERS PROGRAM
          DURING PY 2000




                  U.S. DEPARTMENT OF LABOR
                  OFFICE OF INSPECTOR GENERAL

                  REPORT NO: 02-03-204-03-390
                  ISSUE DATE: SEPTEMBER 30, 2003
                                            TABLE OF CONTENTS


ACRONYMS ................................................................................................................................... i

EXECUTIVE SUMMARY............................................................................................................. 1

INTRODUCTION

       BACKGROUND..................................................................................................................... 5

       AUDIT OBJECTIVE ............................................................................................................. .6

       AUDIT SCOPE AND METHODOLOGY ............................................................................. 7

FINDINGS AND RECOMMENDATIONS

I.     WAS THERE SUFFICIENT EVIDENCE TO SUPPORT PARTICIPANT
       ELIGIBILITY? ................................................................................................................... 9

II.    WHAT OUTCOMES WERE OBTAINED AND WAS THERE A RELATIONSHIP
       BETWEEN TRAINING AND OUTCOMES? ..................................................................... 13

III. WHAT DO WE KNOW ABOUT PARTICIPANTS THAT DID NOT EXIT
     THE PROGRAM?................................................................................................................ 20

IV. WERE PARTICIPANTS SATISFIED WITH THE PROGRAM? ...................................... 24

V.     IS CREDENTIAL ATTAINMENT A MEANINGFUL
       PERFORMANCE MEASURE? ........................................................................................... 31

VI. WHAT WAS THE PARTICIPANT PROFILE? .................................................................. 33

APPENDICES:

       APPENDIX A – GLOSSARY .............................................................................................. 37

       APPENDIX B – PARTICIPANT PROFILE STATISTICS ................................................. 40

       APPENDIX C – ETA’S RESPONSE TO DRAFT REPORT ............................................. 42
                               ACRONYMS


BLS    Bureau of Labor Statistics

CFR    Code of Federal Regulations

ETA    Employment and Training Administration

JTPA   Job Training Partnership Act

OIG    Office of Inspector General

PY     Program Year

TEGL   Training and Employment Guidance Letter

UI     Unemployment Insurance

WIA    Workforce Investment Act of 1998




                                      -i-
                             EXECUTIVE SUMMARY

This report summarizes the results of a nationwide audit of 360 participants enrolled in the
Workforce Investment Act of 1998 (WIA) Dislocated Worker program during Program Year
(PY) 2000. PY 2000 was the first year of WIA operation and was considered a transition year
from the Job Training Partnership Act (JTPA) program. The audit provides a snapshot of
individuals served, services provided, program performance and participant satisfaction.

Overall, participants obtained employment, retained a large percentage of their layoff earnings,
kept their post-layoff jobs, and were satisfied with most of the services provided. Nevertheless,
additional focus is needed to ensure the program serves only eligible individuals, participants
return to the workforce as quickly as possible, and reported outcomes are complete and
meaningful. Also, participants were not as positive about the program as they were under JTPA,
nor about job finding assistance, which is a primary function of WIA.

KEY FINDINGS

Was There Sufficient Evidence To Support Participant Eligibility? (Finding I)

WIA Title 1, Subtitle A, Section 101(9) stipulates that a dislocated worker is in-part defined as
an individual “unlikely to return to a previous industry or occupation.” While sufficient
evidence existed documenting other required criteria for eligibility, one-stop career centers were
unable to demonstrate that participants were unlikely to return to their previous industries or
occupations. Documentation to fulfill this eligibility requirement was not present in 65 percent
of the participant files we sampled. In evaluating participants with outcomes, 42 percent of those
who were not profiled by the Unemployment Insurance (UI) program and 53 percent of those
who were profiled by the UI program, did in fact, return to their previous industries or
occupations. As a result, the program may be serving individuals it was not intended to serve
under WIA. This issue was identified in a prior OIG report on the Dislocated Worker program
under JTPA.

    We recommend that ETA provide additional guidance, or ensure that states and local
    boards develop guidance, regarding documentation of the likelihood a participant will return
    to a previous industry or occupation.

What Outcomes Were Obtained? (Finding II)

On the whole, sample participants obtained employment, earned a large portion of their layoff
wage, and retained their jobs for at least six months. Using the official performance measures of
the program, which were only based on participants who exited the program, the OIG audit
sample met ETA’s performance levels regarding the entered employment rate, job retention rate,
and earnings replacement rate.

To present a more comprehensive picture of the status of all sampled participants, we
supplemented the official performance measures with an analysis of the employment status at
                                                1
various points in time for all participants in the sample regardless of their exit status. At any
point between 12 and 18 months after registering in the program or being laid off, two thirds of
participants were employed, which is lower than the reported entered employment rate of nearly
80 percent. The lower rate resulted because one out of every four participants was still enrolled
in the program at the end of audit fieldwork and, therefore, unaccounted for in official
performance measures.
               Participants Employed Since Layoff and Registration


                                      70%
                   Perecnt Employed



                                                          67%
                                      68%       66%                          67%                    66%
                                      66%                              65%                   65%                          Layoff
                                      64%
                                      62%                                                                                 Registration
                                      60%
                                                      12                 15                        18
                                                      Months Since Layoff and Registration



    We recommend that, to more fully represent outcomes obtained by individuals irrespective
    of their enrollment status, ETA require the states to supplement their Annual Reports,
    mandated by WIA Section 136(d), with information on all participants’ employment status
    at a designated point following registration.

What Do We Know About Participants That Did Not Exit The Program? (Finding III)

One out of every four sampled participants were still enrolled in the program as of the end of
audit fieldwork. These participants had exhausted their unemployment compensation and spent
an average of at least 514 days in the program with some participants exceeding 700 days in the
program. In contrast, participants who exited spent an average of 236 days in the program.
Total time from layoff to the end of audit fieldwork for non-exiters was 629 days, whereas the
total time from layoff to exit for exiters was 336 days.

                                        Time After Layoff


                                            Exiters        100               236

                                      Non-Exiters          115                               514

                                                      0          100    200            300     400        500       600      700

                                                Days from Layoff to Registration                                Days in Program




Twelve non-exiters were still enrolled in training. However, some non-exiters had found jobs
paying wages that ranged from 65 percent to over 100 percent of their layoff wages. Non-exiters
who completed training received minimal assistance and spent an average of 245 days in the
program after completing training. Possible reasons for one-stop career centers not exiting
participants include the lack of clear exit definition and guidance, and human error in not

                                                                                   2
terminating individuals who were no longer receiving services. As a result, non-exiters fall short
of achieving the Secretary’s goal of quickly returning the unemployed to the workforce, and
remain unaccounted for in the official performance measures.

       We recommend that ETA clarify the exit definition, conduct a study of participants
       enrolled in the program for over one year to determine why participants were in the
       program for an extended period, and explore the possibility for one-stop career centers to
       provide intensive job services to these participants to facilitate their exit from the
       program.

Were Participants Satisfied With The Program And Reemployment? (Finding IV)

In response to our survey approximately half of the participants responded that they were
extremely or quite satisfied with the program, training, and employment. Of respondents who
received training, 60 percent answered that the program was extremely or quite helpful, while
only 28 percent of respondents who did not receive training answered that the program was
extremely or quite helpful.

We also benchmarked responses in this against those obtained in our PY 1991 dislocated worker
audit. Generally, there was a greater percentage of positive comments concerning program staff
(65 percent), resources (69 percent), and training (71 percent), but only 39 percent of comments
were positive regarding job-finding assistance, which is the primary function of the Dislocated
Worker program. Responses in this audit regarding participant satisfaction with the program and
the current job were not as positive as in the PY 1991 dislocated worker audit, yet satisfaction
with training to obtain employment was higher in the current audit.

                                Customer Satisfaction: PY 1991 vs. PY 2000                    PY 1991
                                                                                              PY 2000
                         100%
                          80%      65%               69%            58%
                                            56%            59%
                          60%                                                    47% 55%
                                                                           51%
                          40%
                          20%
                           0%
                                  Helpful         Current job    Current vs.   Training for
                                  Overall                        Layoff Job    Employment




    We recommend that ETA examine and address why participants are relatively less satisfied
    with job search assistance, which plays a key role in successful reemployment.




                                                           3
This report also contains additional findings and recommendations addressing the need to
provide a uniform definition for credential attainment, which should entail more than merely
completing any training course (Finding V) and participant profile in terms of services provided
and time spent in the program (Finding VI).



AGENCY’S RESPONSE

The Assistant Secretary for Employment and Training responded to the draft report on
September 30, 2003. The response did not address recommendations but included specific
language to provide context and clarity to the report. These language changes were considered
and included where appropriate.

Excerpts of ETA’s response to the draft report have been incorporated into appropriate sections
of the report with our comments. The response is included in its entirety in Appendix C.




                                                4
                                                    INTRODUCTION

BACKGROUND

Public Law 105-220, the Workforce Investment Act of 1998, reformed Federal job training
programs and created a new, comprehensive workforce investment system. The reformed
system is customer-focused: helping individuals access information through high quality
services, providing tools needed to manage their careers, and helping businesses find skilled
workers. WIA repealed the Job Training Partnership Act and required that states implement
workforce investment systems, effective July 1, 2000. PY 2000 was the first year of WIA
operation and was considered a transition year from the JTPA program which preceded it.

The purpose of Title I of WIA is to provide workforce investment activities that increase
participant employment, retention, earnings, and occupational skill attainment, which will
improve the quality of the workforce, reduce welfare dependency, and enhance the productivity
and competitiveness of the Nation’s economy.

Title I-B, Chapter 5 of WIA requires the Secretary of Labor to make allotments to each state for
the purpose of providing workforce investment activities for dislocated workers. For Fiscal
Years 1999 through 2003, appropriations for each year ranged from $1.4 to $1.6 billion.
                    Dollars in Millions




                                          1,700
                                          1,600
                                          1,500
                                          1,400
                                          1,300
                                          1,200
                                                  1999   2000       2001      2002   2003

                                                                Fiscal Year


The Dislocated Worker program serves individuals who have been terminated or laid off, certain
self-employed individuals who are no longer working, and displaced homemakers. The
Dislocated Worker program provides a variety of core, intensive and training employment
services primarily through one-stop career centers. Core services include job-search and job-
placement assistance and useful labor market information. Intensive services include career
counseling, and a comprehensive assessment of an individual employment plan for dislocated
workers who are unable to find jobs through core services. Training services are linked to
occupations that are in demand in the local area. In addition, a participant can receive supportive
services, such as transportation and needs-related payments. These services, which are funded

                                                                5
by grants awarded to states on the basis of need, are intended to help dislocated workers reenter
the workforce, with benefits, and develop a more secure future.

WIA established and defined four performance measures for the Dislocated Worker program:
entered employment, retention, earnings replacement, and employment and credential. Reported
and targeted performance measures for PY 2000 are shown below:

                                                          Reported
             Performance Measure                         Performance      Targeted
             Entered Employment Rate                         76%            71%
             Retention Rate                                  86%            82%
             Earnings Replacement Rate                      102%            90%
             Employment and Credential Rate                  41%            47%

AUDIT OBJECTIVE

The audit objective was to determine what services were provided and what outcomes were
obtained, at any point, for sampled participants. The subobjectives were to determine the
following:

       •   Was there sufficient evidence to support participant eligibility?

       •   What outcomes were obtained, and was there a relationship between training and
           outcomes?

       •   What do we know about participants that did not exit the program?

       •   Were participants satisfied with the program and reemployment?

       •   Is credential attainment a meaningful performance measure of the program?

       •   What was the profile of the sampled PY 2000 enrolled participant in terms of services
           received and time spent in the program?




                                                6
AUDIT SCOPE AND
METHODOLOGY

The audit was performed using a sample of 360 participants enrolled in the Dislocated Worker
program during PY 2000, which covers July 1, 2000 through June 30, 2001. We judgmentally
selected 12 one-stop career centers to audit. States were selected to represent the various
geographic sections of the continental United States and cities were selected to include a mix of
large, medium, and small cities based on population size. At each one-stop career center, we
statistically selected 30 participants. JTPA participant carryovers were excluded from the
universe of dislocated participants.

       State                Location        City                Size        One-Stop Career Center
       Connecticut          Northeast       New Haven           Small      Connecticut Works New Haven
       Maine                Northeast       Portland            Small      CareerCenter Portland
       New York             Northeast       New York            Large      Queens
       Georgia              Southeast       Atlanta             Medium     Career Resource Center- Norcross
       South Carolina       Southeast       Spartanburg         Small      Spartanburg Technical College
       Illinois             Midwest         Evanston            Small      Evanston Employment and Training
       Michigan             Midwest         Detroit             Medium     Detroit Work Place South
       Missouri             Midwest         Kansas City         Medium     Full Employment Council – Kansas City
       Texas                Southwest       San Antonio         Large      Texas Workforce Center – Hillcrest Drive
       Washington           Northwest       Seattle             Medium     WorkSource Renton
       California           West            Los Angles          Large      Marina Del Rey-Mar Vista
       Colorado             West            Littleton           Small      Arapahoe/Douglas Works Littleton

We reviewed participant files to determine if there was adequate documentation to support
eligibility, e.g., eligibility for unemployment benefits, notice of mass layoffs or plant closing,
and the likelihood of returning to one’s prior industry or occupation. In cases where UI profiling
was used to establish eligibility, we examined profiling methodology to ensure that it
incorporated factors relating to the likelihood of returning to one’s prior occupation or industry.

We also reviewed participant files to obtain data on services received, layoff employment, and
outcomes obtained. To determine the types of services received we used Attachment E of
Training and Employment Guidance Letter 14-00, which capture core, intensive, and training
services for Workforce Investment Act Standardized Record Data. We did not attempt to
determine whether a participant was most in need of training or supportive services. We
determined the time span in which a service was provided; however, the number of days that
services were actually received could vary greatly within that time span; thus, the actual number
of days a service was received could not be determined.

We obtained UI wage information1 from January 1999 through June 2002, to review data on
layoff employers and outcomes. We did not audit UI wages to determine accuracy or
completeness. We did not obtain UI wages for participants who obtained employment out of
state. Further, we excluded quarterly wages less than $1,000 from our analyses.


1
    Self-employed individuals, the Federal government, and other entities do not report wage information to the states.
                                                            7
We sent questionnaires to each sampled participant to verify specific information and determine
the participant’s level of satisfaction with services received and outcomes obtained. If we did
not receive a response, we followed up with a second request and attempted to contact the
participant by telephone. Sixty-one percent of participants responded to our questionnaire. We
compared the results of this audit with OIG Audit Report Number 02-95-232-03-340 entitled
Audit of JTPA Title III Retraining Services for PY 1991, dated March 31,1995, which had similar
customer satisfaction questions.

We did not test internal controls at one-stop career centers. We did consider guidance provided
by ETA, states, and local boards as it relates to eligibility, services provided, and outcomes. Our
audit was limited to documentation supporting eligibility, services provided, and outcomes
obtained for sampled participants. Therefore, we do not provide any assurances over the internal
controls of the program or operators.

Grantee management is responsible for ensuring compliance with laws, regulations, and grant
agreement provisions. We did not perform tests of compliance to evaluate if the grantees were
meeting the requirements of the grants except for participant eligibility under WIA Title I,
Subtitle A, Section 101(9). Our objective was not to provide an opinion on overall compliance
with such provisions, and accordingly, we do not express such an opinion.

We conducted our audits in accordance with Government Auditing Standards, issued by the
Comptroller General of the United States, and included such tests, as we considered necessary to
satisfy the objectives of the audit. We conducted audit fieldwork from May 14, 2002 through
October 25, 2002. We held exit conferences with one-stop career center management, issued
Statement of Facts to each center, and solicited their comments. The individual on-site dates
were as follows:

                                                                      Start       End
         State            One-Stop Career Center                      Date        Date
         California       Marina Del Rey-Mar Vista                    7/9/02     7/17/02
         Colorado         Arapahoe/Douglas Works Littleton            7/15/02    7/29/02
         Connecticut      Connecticut Works New Haven                 5/14/02    5/31/02
         Georgia          Career Resource Center- Norcross           10/21/02   10/25/02
         Illinois         Evanston Employment and Training           8/19/02    8/23/02
         Maine            CareerCenter Portland                      10/7/02    10/10/02
         Michigan         Detroit Work Place South                   8/19/02    8/23/02
         Missouri         Full Employment Council – Kansas City      10/7/02    10/10/02
         New York         Queens                                      9/16/02    9/20/02
         South Carolina   Spartanburg Technical College               8/19/02    8/23/02
         Texas            Texas Workforce Center – Hillcrest Drive    7/8/02    7/16/02
         Washington       WorkSource Renton                          7/15/02    7/26/02




                                                 8
                          FINDINGS AND RECOMMENDATIONS

I. WAS THERE SUFFICIENT EVIDENCE TO SUPPORT PARTICIPANT
   ELIGIBILITY?
WIA Title I, Subtitle A, Section 101(9) defines category one dislocated workers, as follows:

           The term “dislocated worker” means an individual who-- (A)(i) has been
           terminated or laid off, or who has received a notice of termination or layoff, from
           employment; (ii)(I) is eligible for or has exhausted entitlement to unemployment
           compensation; or (II) has been employed for a duration sufficient to demonstrate,
           to the appropriate entity at a one-stop center referred to in section 134(c),
           attachment to the workforce, but is not eligible for unemployment compensation
           due to insufficient earnings or having performed services for an employer that
           were not covered under a State unemployment compensation law; and (iii) is
           unlikely to return to a previous industry or occupation. [Emphasis added.]

While sufficient evidence existed documenting that participants were laid-off, received a notice
of termination from employment, or were eligible for unemployment compensation, one-stop
career centers were unable to demonstrate that participants were unlikely to return to their
previous industries or occupations for category one participants, which comprised 83 percent of
our sample, as depicted in Figure 1.1 below. The primary cause for this condition was the lack
of state and local board guidance on documentation needed by one-stop operators to establish
that a participant was unlikely to return to his or her previous industry or occupation. As a result,
the program may be serving individuals it was not intended to serve under WIA. This issue was
also reported in an OIG audit report2, which addressed the dislocated workers program under
JTPA.




2
    The Dislocated Worker program in a Growing Economy, OIG Audit Report Number 04-00-002-03-340, dated
    June 29, 2000
                                                      9
            F i g u r e 1 .1 - D i s t r i b u t i o n o f P a r t i c ip a n t E l i g i b i l t y           C a te g o ry fo u r
                                                        C a te g o ry th re e                                   D is p la c e d
                                                        S e lf -E m p lo y e d                                 H om em aker
                                C a te g o ry tw o             2 (1 % )                                           1 1 (3 % )
                                P la n t C lo s u r e
                                   4 7 (1 3 % )




                                                                                      C a te g o ry o n e
                                                                                      T e rm in a t e d o r
                                                                                           L a id O f f
                                                                                         3 0 0 (8 3 % )




Documentation was not present in 65 percent or 195 participant files to establish that category
one participants were unlikely to return to their previous industries or occupations. In addition,
we found that many participants, who were deemed unlikely to return to their prior industries or
occupations, did, in fact, return to their previous industries or occupations, or were trained in
skills related to their prior jobs. Of 196 participants with outcomes who were not UI profiled, we
found that:

       !"34 percent or 67 participants returned to the same industries or occupations as at the time
         of their layoffs, and

       !"8 percent or 15 participants were recalled to their layoff employer.

While we recognize that no system can forecast every individual’s employment future with 100
percent accuracy, we would still expect the incidence of an individual returning to his or her
occupation after screening for eligibility would be significantly lower than 42 percent. We
would also expect that participants would be trained in new fields if they were deemed unlikely
to return to their prior occupations.

Moreover, of 175 category one participants who received training, 29 percent or 51 participants
received training related to their layoff occupation. In addition, 34 of the 51 participants who
received training related to their layoff occupation, also returned to their prior industries or
occupations.3

According to CFR Section 663.115 (b), governors and local boards may establish policies and
procedures for one-stop operators to use to determine an individual’s eligibility as a dislocated
worker. However, state and local boards did not provide additional guidance to 9 of the 12 one-
stop career centers selected for audit regarding the documentation needed to establish whether a
participant was unlikely to return to his or her previous industry or occupation. Without

3
    Of the 34 participants who returned to their prior industries or occupations, the one-stop operators did not have
    documentation to establish that 22 participants were unlikely to return to previous industries or occupations.
                                                                                 10
sufficient guidance, one-stop career centers used their own discretion to document this aspect of
participant eligibility. As a result, documentation in participant files ranged from outdated
occupational supply and demand data to forms checked by counselors merely stating that an
occupation or industry was in decline, neither of which adequately documented the “unlikely to
return” provision.

Three one-stop operators utilized UI profiling to assist counselors in determining eligibility for
77 participants. The purpose of UI profiling is to predict the probability of an individual
experiencing prolonged unemployment. UI profiling is allowed as long as the policies and
procedures established by governors and local boards are consistent with the definition of WIA
Section 101(9). In such instances, no further documentation is needed to establish the unlikely to
return criteria. However, even profiled participants returned to their previous industries or
occupations, or were trained in skills related to their prior jobs. Of 60 participants with outcomes
who were UI profiled, we found that:

   !"48 percent or 29 participants returned to the same industries or occupations as at the time
     of their layoffs, and

   !"Five percent or three participants were recalled to their layoff employer.

Further, of the 33 profiled participants who received training, 36 percent or 12 participants
received training related to their layoff occupation. In addition, 7 of the 12 participants who
received training related to their layoff occupation, also returned to their prior industries or
occupations.

Recommendations
We recommend that the Assistant Secretary for Employment and Training:

    • Provide additional guidance or ensure that states and local boards develop guidance to
      address the documentation needed to establish that a participant is unlikely to return to
      his or her previous industry or occupation; and

    • Evaluate the effectiveness of UI profiling in identifying participants unlikely to return to
      their prior industries or occupations; or

    • Evaluate the need for the provision requiring that a participant be “unlikely to return to a
      previous industry or occupation.”




                                                 11
Agency’s Response
In its response to the draft report, ETA suggested some editorial changes to provide context and
clarity to the report. These changes were considered and included where appropriate.

OIG’s Comments

ETA’s response did not address our recommendations; consequently, these recommendations are
considered to be unresolved.




                                               12
II. WHAT OUTCOMES WERE OBTAINED AND WAS THERE A
RELATIONSHIP BETWEEN TRAINING AND OUTCOMES?
WIA Title I, Subtitle B, Section 106 states:

         The purpose of this subtitle is to provide workforce investment activities, through
         statewide and local workforce investment systems, that increase the employment,
         retention, and earnings of participants, and increase occupational skill attainment
         by participants, and, as a result, improve the quality of the workforce. . . .

In this finding we analyzed outcomes in terms of the official performance measures,4 which were
based on participants who exited the program, and an employment status analysis at various
points in time. Participants obtained employment, earned a large portion of their layoff wage,
and retained their jobs for at least six months. The sample resulted in an entered employment
rate of 78 percent and a job retention rate of 83 percent, which are comparable to the reported
rates for PYs 2000 and 2001. The sample resulted in an earnings replacement rate of 89 percent,
which is significantly lower than the reported rate; however, the sample earnings change still met
the target performance level.

To present a more comprehensive picture of the status of all sampled participants, we
supplemented the above measures with an analysis of the employment status at various points in
time for all participants in the sample regardless of their exit status. At any point between 12 and
18 months after registering in the program or being laid off, two thirds of participants were
employed, which is lower than the reported entered employment rate of nearly 80 percent.

There were no significant statistical differences in the likelihood of obtaining a job and retaining
prior earnings for participants trained and non-trained, and for participant time spent in the
program.5 In terms of participant characteristics, participants who were older or college
educated had a significantly higher entered employment rate than those who were younger or
high school graduates. However, participants who were younger, high school graduates, or less
tenured retained more of their layoff earnings than older, college educated or longer tenured
participants.

EMPLOYMENT STATUS

We measured the employment status of participants at three-month intervals starting one year
after layoff (layoff reference), one year after registration (registration reference), and starting at
June 30, 2001(interval reference).6 Participants were considered employed if they earned more
than $1,000 in the measured quarter. One year from layoff and registration was designated as the
starting point since it is after one year that an individual would have exhausted unemployment


4
  The employment and credential rate was omitted. See Finding V.
5
  Statistical differences for job retention could not be measured since the sample size for those who did not retain
  their employment was only 21 participants and considered too small.
6
  Participants who were enrolled in training longer than two months or who had wage data that was not available
  were excluded from this analysis. Recalls to the prior employer were included.
                                                          13
insurance benefits. Under the interval approach, employment is measured at the same point in
time for all participants.

The employment status at a given point in time provides a more complete representation of
program accomplishment since it accounts for most participants. The official performance
measures only account for exiters. For example, one year after registration, a total of 91 percent7
of the sample is included in the employment status analysis, whereas ETA reported on 64 percent
of the enrolled universe for PY 2000, and excluded participants who received services for up to
two years.

Generally, at any measured point in time after registration or layoff, two thirds of participants
were employed, as shown below in Figure 2.1. Similar results are shown for the interval method,
as shown in Figure 2.2. The Bureau of Labor Statistics (BLS) reported that 64 percent of the
workers displaced between January 1999 and December 2001 were employed when surveyed in
January 2002.8 The BLS study provides a measure of comparison to assess the validity of
sample analysis and gauge program performance even though the BLS study covered a different
time frame.


    Figure 2.1 - Participants Employed Since Layoff and Registration

                           80%
        Percent Employed




                           75%
                           70%   66% 67%             65%
                                                           67%                  66%
                                                                         65%
                           65%                                                                  Layoff
                           60%                                                                  Registration
                           55%
                           50%
                                   12                   15                     18
                                        Months Since Layoff and Registration




7
    Remaining 9 percent were in training or wage data was unavailable.
8
    Bureau of Labor Statistics’ Worker Displacement, 1999-2001 Report, dated August 21, 2002.
                                                             14
            Figure 2.2 – Interval Reference9



                                 80%
                                                          73%
              Percent Employed

                                 75%
                                 70%             68%
                                                                    66%        65%
                                 65%    61%
                                 60%
                                 55%
                                 50%
                                       2/2001   3/2001   4/2001    1/2002     2/2002

                                                         Quarter



ENTERED
EMPLOYMENT RATE

The sample resulted in an entered employment rate of 78 percent. This result is comparable to
reported entered employment rates of 76 percent and 79 percent for PYs 2000 and 2001,
respectively.

There were no significant differences whether a participant entered employment by the first
quarter after exit based on training, time in program, gender, and tenure at layoff employment.
However, participants who were older or college educated had a significantly higher entered
employment rate than those who were younger or high school graduates. College educated
participants had an entered employment rate of 83 percent compared to 71 percent for high
school graduates with no college education. Further, there was a substantial difference among
participants of different age groups. As participants got older, the entered employment rates
increased as shown in Figure 2.3.




9
    Fourth quarter 2001 results appear to be seasonal upward spike in employment since quarterly wages before
    and/or after were negligible.
                                                             15
                Figure 2.3 - Entered Employment Rates By Age

                    100%
                     90%                                                            85%
                                                                   81%
                     80%                          73%
                     70%          66%
                     60%
                     50%
                     40%
                     30%
                     20%
                     10%
                      0%
                                 <= 30          31 to 40         41 to 50           > 50
                                                           AGE


EARNINGS CHANGE

The sample resulted in an earnings replacement rate of 89 percent or an average decrease in
quarterly wages of $915. This is significantly lower than the reported earnings replacement rate
of 102 percent or an average increase in quarterly wages of $2,596 for PY 2000. In
PY 2001, ETA reported an earnings replacement rate of 101 percent. However, the sample
earnings change still met the official target.

For analytical purposes, we also compared the first quarter wages prior to layoff with first
quarter wages after exit.10 The earnings replacement rate was 86 percent for this analysis. Of
those reemployed, 35 percent earned more in their new jobs compared to what they had earned
from their layoff employers. There were significant differences in earnings change for
education, age, and tenure at layoff employment. Participants who were high school graduates
with no college education, who were younger, or had lay off tenure of less than three years,
retained most of their layoff earnings. Training, time in program and gender had insignificant
effects on earnings change.

Education

College educated participants earned more than high school graduates prior to the program.
However, participants who finished high school retained a larger percentage of their layoff
wages than college educated participants. While high school graduates retained 98 percent of
their wages, college educated participants retained 82 percent of their layoff wages.




10
     We used first quarter prior to dislocation wages and first quarter after exit wages to ensure sufficient sample sizes
     within sub-sample cohorts.
                                                            16
Earnings Change by Education Level
                                                                  High School
                                       Wages                       Graduates             College Educated
                         First Quarter Prior to Dislocation          $6,485                   $10,421
                         First Quarter After Exit                    $6,379                    $8,517
                         Earnings Replacement                         98%                      82%

Similarly, training was more beneficial to less-educated participants. Trained participants who
finished high school had an increase in wages after exit. High school graduates without any
college credits earned 103 percent of their prior dislocation wage while trained participants with
college education retained 77 percent of their prior dislocation wages.

Trained Participant Earnings Change by Education Level
                                                                 High School
                                                                  Graduates              College Educated
                                       Wages                     With Training            With Training
                         First Quarter Prior to Dislocation         $6,210                    $10,908
                         First Quarter After Exit                   $6,380                     $8,418
                         Earnings Replacement                        103%                      77%

Age

Earnings replacement rates steadily declined, as participants got older. The rates dropped from
93 percent for participants aged 31 to 40, to 76 percent for participants over 50 years old.


                     Figure 2.4 - Earnings Replacement By Age Groups

                                                        9,393                    9,344
                     10,000
                                 7,790
   Quarterly Wages




                                                                8,108
                      8,000              7,218                                           7,142
                                                                                                      Layoff Wage
                      6,000
                                                                                                      Exit Wage
                      4,000

                      2,000                                                                           Percent Retained
                                           93%                        86%                   76%
                          0
                                    31 to 40                  41 to 50              Over 50
                                                                Age
Tenure at Layoff Employment

Although average layoff quarterly wages for participants with tenure at layoff employment of
less than three years and three years or more were approximately the same, earnings replacement
rates were substantially different. Participants with a tenure at layoff employment of less than
three years retained 95 percent of their layoff wages while participants with tenure at layoff
employment of three years or more retained 77 percent of their layoff wage.


                                                                      17
JOB RETENTION RATE

The sample resulted in a job retention rate of 83 percent, which is comparable to the reported
rates of 86 percent and 87 percent for PYs 2000 and 2001, respectively. Of the 124 participants
who earned first quarter wages after exiting the program, only 21 participants did not retain
employment at the third quarter after exit.11 Although the sample size of participants who did
not retain jobs was too small to analyze for statistical differences, we observed that they were
younger, less educated, or had less training than participants who kept their jobs.

Recommendations
We recommend that the Assistant Secretary for Employment and Training:

         •     More fully represent outcomes obtained by individuals irrespective of their enrollment
               status by requiring the states to supplement their Annual Reports, mandated by WIA
               Section 136(d), with information on all participants’ employment status at a designated
               point following registration.

         •     Explore methods to target and provide additional intensive services to those cohorts
               who were less successful in returning to the workforce and retaining their layoff
               wages.

Agency’s Response

             “Regarding finding II on outcomes, we believe that both the Executive Summary
             and the body of the report as currently worded improperly stray from and exceed
             the specific audit sub-objective which was “What Outcomes Were Obtained in
             Terms of the Program’s Official Performance Measures Regarding Entered
             Employment, Earnings Change and Job Retention?” [emphasis added] We
             suggest that the finding read simply that:

                    All outcomes specified by official program performance standards
                    under the law were met.

             “The reviewers are most certainly entitled to the opinion that official WIA
             performance measures can be improved and on the ways by which that might be
             accomplished, but judging on the adequacy of the measures was not part of the
             objective of the review as stated by the IG itself (see quote and emphasis added
             above). If the report must contain such an opinion, it should be clearly identified
             as an opinion about the need to change official program measures and should not
             be included in a finding or in recommendation to address the finding. Given the
             objective of the audit, we believe that it is rather unfair to claim as a finding that


11
     Participants who exited prior to fourth quarter 2001 were used to ensure sufficient wage data was available to
     calculate job retention.
                                                          18
       “by limiting performance measures to exited participants, the reported entered
       employment rate is incomplete and misleading.”

       “Again, to be clear about our concern, we suggest that the opinion does not
       belong in the report at all, given the stated objectives. But if included, it should
       be clearly identified as an opinion outside the scope of the report objectives.”

OIG’s Comments

The employment status analysis supplements the audit subobjective, which was to determine
outcomes obtained for sampled participants. Furthermore, the overall objective was to account
for all 360 sampled participants in terms of outcomes obtained and services received. Consistent
with both objectives, the employment status analysis accounts for all participants, provides a
more complete picture of outcomes, and adds necessary context to the official performance
measures that focus only on exited participants.

ETA’s response did not address our recommendations; consequently, the recommendations are
considered to be unresolved.




                                                 19
III. WHAT DO WE KNOW ABOUT PARTICIPANTS THAT DID NOT
     EXIT THE PROGRAM?
One of the Secretary’s goals is to help the unemployed return quickly to the workforce so they
can be productive members of society.

One out of every four sampled participants (86 of 360) was still enrolled in the program by the
end of audit fieldwork. These participants had exhausted their unemployment compensation and
spent an average of at least 514 days in the program with some participants exceeding 700 days
in the program. Some of these participants who remained in the program had found jobs. Non-
exiters who completed training received minimal assistance and spent an average of 245 days in
the program after completing training. Possible reasons for one-stop career centers not exiting
participants include the lack of clear exit definition and guidance, and human error in not
terminating individuals who were no longer receiving services. As a result, non-exiters fall short
of achieving the Secretary’s goal of quickly returning the unemployed to the workforce, and
remain unaccounted for in the official performance measures.

PROFILE

A total of 86 participants were still enrolled in the program by the end of our audit fieldwork.
Twelve non-exiters were still enrolled in training. Generally, non-exited participants were less
educated than exited participants. Non-exiters had a larger percentage of individuals who only
completed high school, but had a smaller percentage of post-secondary education as compared to
exiters.

As one would expect, there was a substantial difference in time spent in the program between
participants who were still in the program as compared to those that exited the program. All
participants who did not exit the program were enrolled in the program more than a year.
Whether a participant received training or not, non-exiters spent, on average, twice as long in the
program as compared to exiters. On average, each non-exiter spent at least 514 days in the
program, with a low of 393 days and a high of 725 days.12 In contrast, participants who exited
spent an average of 236 days in the program. Total time from layoff to the end of audit
fieldwork for non-exiters was 629 days, whereas the total time from layoff to exit for exiters was
336 days. Figure 3.1 illustrates the disparity of time after layoff between exiters and non-exiters.




12
     For non-exiters, we computed length of time in the program as of the last day of audit fieldwork.

                                                           20
  Figure 3.1 - Time After Layoff
                                              336 days


            Exiters         100                    236
                                                                  629 days
       Non-Exiters          115                                    514

                       0           100          200         300          400       500        600       700

                                                                  Days

                                        Dislocation date to registration            Time in program


As illustrated in Figure 3.2, trained non-exiters averaged twice as long in each aspect of the
program as compared to trained exiters, even though it took both groups three months to register
in the program after dislocation. Total time from layoff to the end of audit fieldwork for non-
exiters was 656 days, whereas the total time for exiters was 341 days.


   Figure 3.2 - Trained Participants Time After Layoff
                                         341 Days



        Exiters            90      36        124          91

                                                                  656 Days


     Non-Exiters           93       63                   255                        245



                   0              100          200        300          400        500        600        700
     Dislocation Date to Registration                          Core/Intensive Services
     Training                                                  Post Training - Includes Core and Intensive




                                                          21
SOME NON-EXITERS
WERE EMPLOYED

Some non-exiters had jobs. Of the 86 non-exiters, 51 participants were paid quarterly wages
while participating in the program. Fifteen participants were paid wages that ranged from 65
percent to over 100 percent of their layoff wages. Thirty-six participants received wages, but
these wages were significantly less than their layoff wages and varied greatly from quarter to
quarter.

SERVICES PROVIDED
AFTER TRAINING

Of the 86 non-exiters, 63 attended a training service. Of the 63 who were trained, 34 participants
finished training. After completing training, participants only received minimal services, as only
five participants received an intensive service. The remaining 29 participants only received a
core service. After completing training, participants spent an average time of 245 days in the
program.

EXIT DEFINITION

There is a need to clarify the point of exit for counting participant outcomes. According to ETA
guidance, a participant exit occurs, in part, when the participant’s case is either closed,
completed or a participant leaves the program. When to recognize or under what conditions a
case should be closed and completed is not clearly defined; thus, providing one-stop career
centers wide latitude in determining when to exit a participant. Training and Employment
Guidance Letter (TEGL) No. 7-99 part D states:13

           “Point of Exit for Counting Outcomes. For all of the core measures. . .
           comparability across States is only possible if a single point in time is used to
           begin measurement. . . . There are two ways to determine exit during a quarter:

                   1. a participant who has a date of case closure, completion or known exit
                      from WIA-funded or non-WIA funded partner service within the
                      quarter (hard exit) or

                   2. a participant who does not receive any WIA-funded or non-WIA
                      funded partner service for 90 days and is not scheduled for future
                      services except follow-up services (soft exit).

           . . . . The exit date is the last date of WIA funded or partner service received
           (except follow-up services). . . .”
13
     Similar guidance was also found in TEGL No. 14-00, Change 1, Attachment E
                                                       22
Recommendations
We recommend that the Assistant Secretary for Employment and Training:

   •   Provide additional guidance and clarify the program’s exit definition to ensure the
       consistent application of exit criteria at one-stop career centers.

   •   Explore the possibility for one-stop career centers to provide intensive job search or other
       intensive services to participants enrolled in the program for over a year to facilitate their
       exit from the program and return to the workforce.

   •   Conduct a study of participants enrolled in the program for over one year to determine
       why participants were in the program for an extended period, and what benefits, if any,
       were obtained.

Agency’s Response
ETA’s response to the draft report did not address this finding or the related recommendations.


OIG’s Comments

ETA’s response did not address our recommendations; consequently, these recommendations are
considered to be unresolved.




                                                23
IV. WERE PARTICIPANTS SATISFIED WITH THE PROGRAM?
A measure of success for any program is the opinion participants have of the program and the
extent to which they feel the program was helpful. We surveyed sampled participants to
determine the extent that the program and training were helpful, the level of satisfaction with
their current job, and what they liked and disliked about the program. Where possible, we
compared these results with the results of an audit of PY 1991 dislocated workers.14

Approximately half of the participants responded that they were extremely or quite satisfied with
the program, training, and employment. Generally, there were a greater percentage of positive
comments about program staff, resources, and training, but there were a greater percentage of
negative comments about job finding assistance, which is a primary function of the Dislocated
Worker program. Participants who received training were significantly more positive with the
overall program than those without training. Also, participants over 50 years of age were less
positive about the program and their current job than those under 50 years of age.

Responses in this audit regarding satisfaction with the program and current job were not as
positive as in the PY 1991 dislocated worker audit, yet, satisfaction with training to obtain
employment was higher in the current audit. 15

           Figure 4.1 – Customer Satisfaction: PY 1991 vs. PY 2000                                     PY 1991
                                                                                                       PY 2000
            100%

              80%                               69%
                            65%     56%                 59%           58%
              60%
                                                                             51%         47% 55%

              40%

              20%

               0%
                     Helpful Overall        Current job          Current vs.         Training for
                                                                 Layoff Job          Employment




14
     Audit of JTPA Title III Retraining Services program Year 1991, OIG Audit Report Number 02-95-232-03-340,
     dated March 31, 1995.
15
     In comparing this audit and PY 1991 results, we only included individuals that were trained and exited, since that
     was the population composition of the PY 1991 audit. Percentages in the chart were the extent participants found
     the program extremely or quite helpful, or satisfied with their current job.
                                                           24
HOW HELPFUL WAS
THE PROGRAM?

We asked participants: “Overall, how helpful was the program to you?” Forty-eight
percent of respondents answered that they thought the program was extremely or quite
helpful.

      Figure 4.2 - Satisfaction with Overall Program



                                                                             Extremely
                                                                              Helpful
        Not at All Helpful                                                     29%
               18%



               Somewhat
                                                                            Quite Helpful
                Helpful
                                                                                19%
                 34%


                                                                                                  
There was a significant difference in the response to this question between those who
received training and those that did not. Of respondents who received training, 60
percent answered that the program was extremely or quite helpful, while only 28 percent
of respondents who did not receive training answered that the program was extremely or
quite helpful.

 Figure 4.3 – Satisfaction with Overall Program: Trained vs. Non-Trained Participants



             60%

             50%                                    45%
                       38%
             40%
                                              27%                    27%
             30%
                                   22%

             20%             14%             14%               13%

             10%

              0%
                    Extremely       Quite      Somewhat        Not at All      With Training
                     Helpful       Helpful      Helpful         Helpful        Without Training




                                                          25
Participants over 50 years of age were less positive than younger groups when responding that
the overall program was extremely or quite helpful.

              40 years or less        41-50 years old      Over 50 years old
                   49%                    57%                    37%

We also compared the results of this audit with the audit of PY 1991 dislocated workers. Fifty-
six percent of respondents who exited and received training answered that the program was
extremely or quite helpful, compared to the 65 percent result reported in the PY 1991 audit.



ASPECTS LIKED AND
DISLIKED ABOUT THE
PROGRAM?

Participants were asked: “What aspect(s) did you like about the program?” and “What aspect(s)
did you not like about the program?” Generally, there were a greater percentage of positive
comments regarding resources, staff, and training. Job finding assistance, which is a primary
function of this program, was the only category where negative comments exceeded positive
comments. Participant positive and negative responses are summarized below and examples of
their comments follow:

                                 Category                 Positive     Negative
               Job Finding                                  39%         61%
               Resources (computer, fax machines etc.)      69%         31%
               Staff                                        65%         35%
               Training                                     71%         29%




                                               26
Category                       Positive comments                         Negative comments
Job Finding           Job counselors, personal attention      Job search was not helpful. I
                      by caseworker. I was made to feel       could have done the same thing
                      that they cared about me/my job         at home. I could not find a job
                      search. They encouraged me to           in the area in which I was
                      answer ads in L.A. Times and that is    trained.
                      how I found my job.
Resources             Full use of expensive equipment         My one complaint was that the One
(computer, fax        without charge (it would cost a         Stop Career Center was only open one
machines etc.)        fortune if used at Kinko’s; etc.). I    day past 5:00 pm. Therefore I had
                      am so appreciative of this program.     problems getting there from my part-
                      It must never be discontinued!          time jobs.

Staff                 Ability to talk with                    I kept hearing all these great stories
                      someone. Knowing that                   about getting people great jobs -
                      there was a place to go for             Nothing ever arose from the workforce
                      advice.                                 center. - I got my job on my own - the
                                                              counselors were full of great stories, but
                                                              never followed through.
Training              Just getting the opportunity to         - Once my unemployment ran out, I
                      change my career into something         couldn’t take classes because I had no
                      that will always be around              money to go to school.
                      (Healthcare).                           - Training was too basic and not in
                                                              enough depth.

HOW HELPFUL WAS
TRAINING?

We asked participants: “How helpful was the training in teaching you skills that you needed for
your current job?” Forty-nine percent of respondents answered that training was extremely or
quite helpful.


           Figure 4.4 - How Helpful Training was in Teaching the Skills Needed for Current Job

                                                                          Extremely Helpful
              Not at All Helpful                                                23%
                     18%




                                                                                     Quite Helpful
               Somewhat Helpful                                                          26%
                    33%




                                                    27
We also asked participants: “If you received training, how helpful was the training in teaching
you the skills needed for the job you received when exiting the program?” Sixty percent of
respondents answered that training was extremely or quite helpful.



          Figure 4.5 - How Helpful was Training in Teaching the Skills Needed for Job


       Not at All Helpful
              9%
                                                                                     Extremely Helpful
                                                                                           31%



                                                                                   Quite Helpful
                                                                                       29%
         Somewhat Helpful
              31%



When the results of the above two questions were combined, 54 percent of participants who were
trained and exited responded that training was extremely or quite helpful. This compares
favorably to the 47 percent result reported in the PY 1991 audit for respondents who answered the
question, “How helpful was the JTPA training in affording skills needed for their job?”

HOW SATISFIED WITH
CURRENT JOB?

We asked participants: “Considering all aspects of the job, how satisfied are you with your
current job?” Fifty-six percent of respondents answered that they were extremely or quite
satisfied with their current job.


        Figure 4.6 - Satisfaction with Current Job
                 Not at All Satisfied                        Extremely Satisfied
                        21%                                        21%




    Somewhat Satisfied
         23%
                                                                        Quite Satisfied
                                                                            35%




                                               28
Fifty-nine percent of respondents who exited and received training answered that they were
extremely or quite satisfied with their current jobs. This compares to the 69 percent result
reported in the PY 1991 audit.

HOW SATISFIED WITH
CURRENT JOB AS
COMPARED TO LAYOFF
JOB?

We asked participants: “All things considered, when comparing your current with your last job
prior to this program, are you much better off, somewhat better off, about the same, not as well
off?”

Forty-nine percent of the respondents, who found employment, answered that they were much or
somewhat better off with their current job compared to their layoff job.


       Figure 4.7 - Current Job vs. Layoff Job


      Not as Well Off                                                   Much Better Off
           31%                                                              28%




                                                                         Somewhat Better
      About the Same                                                          Off
          20%                                                                21%



Participants over 50 years of age were less positive than younger groups when indicating that
they were much or somewhat better off with their current job as compared to their layoff job.

               40 years or less      41-50 years old        Over 50 years old
                    53%                  55%                      40%

Fifty-one percent of respondents who exited and received training felt they were much or
somewhat better off with their current job. This compares to the 58 percent result reported in the
PY 1991 audit.

Recommendation
We recommend that ETA examine and address why participants are relatively less satisfied with
job search assistance, which plays a key role in successful reemployment.




                                                 29
Agency’s Response
       . . . It is important to note that the review looked at participant satisfaction during
       the transition year from JTPA to WIA as the new program was getting off the
       ground and that economy under JTPA in PY 1991 (to which the new WIA
       experience is compared) was quite different. Even so, the results of the WIA
       customer satisfaction survey during PY 2000 exceeded the negotiated levels. The
       participant satisfaction level was 77.9% and the employer level was 70%. The
       negotiated levels were 67.2% and 64.8% respectively.

OIG’s Comments

ETA’s response did not address our recommendation; consequently, the recommendation is
considered to be unresolved.




                                                 30
V. IS CREDENTIAL ATTAINMENT A MEANINGFUL PERFORMANCE
   MEASURE?

Credential attainment is described in 20 CFR 666.100(a)(2)(iv) as follows:

       Attainment of a recognized credential related to achievement of educational skills
       (such as a secondary school diploma or its recognized equivalent), or occupational
       skills, by participants who enter unsubsidized employment.

Further guidance in defining credential attainment is contained in the Revised Workforce
Investment Act Title 1-B Standardized Record Data, dated October 1, 2001, that states:

       A credential is defined as any nationally recognized degree or certificate or a
       State/locally recognized credential. Credentials will include, but are not limited
       to a high school diploma, GED or other recognized equivalents, postsecondary
       degrees, recognized skills standards, licensure, apprenticeship or industry
       recognized certificates. States should include all State Education Agency
       recognized credentials. In addition, States should work with local Workforce
       Investment Boards to encourage certificates to recognize successful completion of
       the training services listed above that are designed to equip individuals to enter or
       re-enter employment, retain employment, or advance into better employment.
       (Underscoring added.)

States compete for incentive money based on their employment and credential rate and other
performance measures. However, in developing the employment and credential rate, key terms
and definitions, which impact reporting, were left to each state’s discretion. Depending on state
policies, credentials could encompass anything from a two-week word processing course to a
four-year bachelor’s degree. As a result, incentive funds may be awarded to states based on their
credential rates rather than the quality of their accomplishment.

Of the 146 participants who completed training, 142 received credentials. The majority of
credentials attained (92 percent) were for completing a training program. Only eight percent of
credentials were awarded for obtaining a license or degree. Types of credentials include the
following:
                                                             Number of
                                    Credential              Participants
                          Occupational Skills Certificate        130
                          Occupational Skills License              8
                          Bachelor's Degree                        2
                          Associates' Degree                       1
                          High School Diploma / GED                1
                                       Total                     142

ETA has recognized the need for revising this and other performance measures. In response to
the Inspector General’s Statement on the Top Management Issues at the U.S. Department of
Labor, dated January 2003, the Assistant Secretary for Employment and Training stated:


                                                31
       DOL and several other Federal agencies are working with the Office of
       Management and Budget (OMB) to develop a core set of performance measures
       that would apply to all Federally-funded job training programs, including WIA
       Title I formula programs. Under this proposal, which is scheduled to take effect
       in FY 2004, the credential attainment measure for adult and dislocated workers
       would be eliminated. . . .

Recommendation
If credential attainment continues to be an official performance measure, we recommend that the
Assistant Secretary for Employment and Training provide a uniform definition for credential
attainment, which should entail more than merely completing any training course.


Agency’s Response
ETA’s response to the draft report did not address this finding or the related recommendation.


OIG’s Comments

ETA’s response did not address our recommendation; consequently, the recommendation is
considered to be unresolved.




                                               32
VI. WHAT WAS THE PARTICIPANT PROFILE?
In this finding, we address services provided to participants and time spent in the program. One-
stop operators provided various core, intensive, training, and supportive services. Practically all
participants received at least one core and intensive service. Fifty-seven percent of participants
received training, and supportive services were provided to only eight percent of participants.

Time spent in the program ranged from a minimum of one day to a maximum of 725 days. The
average time in the program was 300 days. The average time in the program was 338 days for
trained participants and 255 days for non-trained participants. Four out of every ten participants
were in the program for over a year. The average time spent in the program for these
participants was 492 days and the average time from layoff to exiting the program was 597
days.2

BACKGROUND
INFORMATION

On average, participants were 44 years old, with at least a high school education, worked six
years for their layoff employer, and earned an average of $8,500 per quarter prior to dislocation.
The sample included an equal number of males and females. Trained and non-trained
participants were similar in terms of gender, age, education, and layoff wages.

SERVICES PROVIDED

Training

Fifty-seven percent of participants received training. As shown below, occupational skills
training was provided to 95 percent of trained participants with an average cost of $2,527 per
participant. Training courses ranged from a two-week word processing class to a four-year
bachelor’s degree. Typical occupational skills training included subjects such as clerical,
computer, and truck driving. Computer courses were given to 65 percent of those trained.

                                                    Number of                             Average Cost
                    Training Types                  Participants          Percent        Per Participant
             Occupational Skills                        194                  95              $2,527
             On-the Job Training                          5                   3               1,017
             Adult Education and Literacy                 3                   1                 NA
             Other (College Credits)                      3                   1               3,823
                                                        205                 100




2
    For non-exiters, we computed length of time in the program as of the last day of audit fieldwork.
                                                           33
Core and Intensive Services

One-Stop operators provided various core, intensive, and supportive services to dislocated
workers. Ninety-nine percent of participants received at least one core service and 96 percent
received at least one intensive service. Of the participants who received an intensive service,
92 percent received an intensive service during the first month of registration. The predominant
core services provided to participants were job search and placement assistance. The primary
intensive services provided were individual counseling and career planning.

Supportive Services

Supportive services were provided to eight percent of participants with an average cost of $900
per participant. Payments were for transportation, utilities, housing, needs-related, or dependent
care expenses.


                     Figure 6.1 - Support Services

                             16
                             14
    Number of Participants




                             12
                             10
                                      Avg
                                                     Avg
                              8       $285
                                                     $278
                              6
                                                                    Avg
                              4                                     $830       Avg
                                                                               $550           Avg
                              2                                                              $2,282
                              0
                                  Transportation   Utilities   Housing     Needs-Related Dependent Care


TIME IN THE PROGRAM

The average time spent in the program was 300 days. Time spent in the program ranged from a
minimum of one day to a maximum of 725 days. Fifty-nine percent of participants exited the
program in one year or less. The figure below presents a distribution of the time spent in the
program.




                                                               34
       Figure 6.2 - Time In Program

       No. of Participants   100

                               80                          71
                                                                                                     56              54
                               60          51                         50
                                                                                     40                                           38
                               40

                               20

                                 0
                                         Under 3           6          9          12        15                        18         Over 18
                                                                           Months in program


Training and Non-Training

The average time in the program for trained participants was 338 days, including approximately
one half year in training. Comparatively, non-trained participants spent on average 255 days in
the program, receiving only core and intensive services. The total time from layoff to exiting the
program was 425 days for trained and 365 days for non-trained participants, as shown below.

     Figure 6.3 - Time After Layoff: Trained vs. Non-Trained Participants

                                                                      365 Days

 Non-Trained                                    110                                         255

                                                                                  425 Days


       Trained                                       87         46                   172                                  120

                                     0          50         100       150         200         250          300            350     400      450
                                                                                 Days
                             Dislocation to Registration                   Core/Intensive

                             Training                                      Post Training - Includes Core and Intensive




                                                                                35
Participants in program Over a Year

Forty-one percent or 146 participants were in the program for over a year. Of the 146
participants, 60 were exiters and 86 were non-exiters. Thirty-five of these participants were
enrolled in a training program and 39 were receiving intensive services at the one-year
benchmark.

In terms of age, gender, education, and layoff wages, there were no statistical differences
between participants in the program over and under one year. However, participants in the
program over a year had more tenure at their layoff employer than participants in the program
under a year.

A distribution of participants in the program over a year is shown below. The average time spent
in the program for these participants was 492 days, ranging from 365 days to 724 days. The
average time from layoff to exiting the program was 597 days.


  Figure 6.4 - Time in Program Greater Than 1 Year

                         50

                         40
   No. of Participants




                                                35
                               32
                         30
                                    22                      22                            Exiters
                                           19                                             Non-exiters
                         20

                         10                             7
                                                                        4          3
                                                                    2
                                                                               0
                          0
                              366 - 450   450 - 540   540 - 630   630 - 720   Over 720
                                                        Days




                                                            36
                                                                                      APPENDIX A



                                        GLOSSARY

Core Service - Core services shall at a minimum include determination of eligibility for
program, assessment of skill levels, job search placement assistance, job vacancy listings, filing
claims for UI, and follow-up services. Additionally, follow-up services must be made available
for not less than 12 months after the first day of employment.

Credential - Nationally recognized degree, certificate, or State/locally recognized credential.
Credentials include, but are not limited to a high school diploma, GED or other recognized
equivalents, post-secondary degrees/certificates, recognized skill standards, and licensure or
industry-recognized certificates. States should include all State Education Agency recognized
credentials. In addition, States should work with local Workforce Investment Boards to
encourage certificates to recognize successful completion of training services listed above that
are designed to equip individuals to enter or re-enter employment, retain employment, or
advance into better employment.

Dislocated Worker Categories – To be eligible for the Dislocated Worker program, an
individual must fit into one of the categories below:

       Category one - (i) has been terminated or laid off, or who has received a notice of
       termination or layoff, from employment; (ii)(I) is eligible for or has exhausted
       entitlement to unemployment compensation; or (II) has been employed for a duration
       sufficient to demonstrate, to the appropriate entity at a one-stop center attachment to the
       workforce, but is not eligible for unemployment compensation due to insufficient
       earnings or having performed services for an employer that were not covered under a
       State unemployment compensation law; and (iii) is unlikely to return to a previous
       industry or occupation.

       Category two - (i) has been terminated or laid off, or has received a notice of termination
       or layoff, from employment as a result of any permanent closure of, or any substantial
       layoff at, a plant, facility, or enterprise; (ii) is employed at a facility at which the
       employer has made a general announcement that such facility will close within 180 days;
       or (iii) for purposes of eligibility to receive services other than training services described
       in section 134(d)(4), intensive services described in section 134(d)(3), or supportive
       services, is employed at a facility at which the employer has made a general
       announcement that such facility will close.

       Category three - was self-employed (including employment as a farmer, a rancher, or a
       fisherman) but is unemployed as a result of general economic conditions in the
       community in which the individual resides or because of natural disasters.

       Category four - is a displaced homemaker.


                                                 37
Dislocation Date - The last day of employment at the dislocation job. If there is no date of
dislocation, date of registration will be used instead.

Displaced Homemaker - An individual who has been dependent on the income of another
family member but is no longer supported by that income, and is unemployed or underemployed
and is experiencing difficulty in obtaining or upgrading employment.

Earnings Replacement - Of those who are employed in the first quarter after exit: Total post-
program earnings (earnings in quarter 2 + quarter 3 after exit) divided by the pre-dislocation
earnings (earnings in quarter 2 + quarter 3 prior to dislocation). To ensure comparability of this
measure on a national level, the UI wage records will be the only data source for this measure.

Employment and Credential Rate - Of those dislocated workers who received training
services: Number of dislocated workers who were employed in the first quarter after exit and
received a credential by the end of the third quarter after exit divided by the number of dislocated
workers who exited services during the quarter.

Employed in Quarter After Exit Quarter - The individual is considered employed if UI wage
records for the quarter after exit show earnings. UI Wage records will be the primary data source
for tracking employment in the quarter after exit. When supplemental data sources are used,
individuals should be counted as employed if, in the calendar quarter after exit, they did any
work at all as paid employees (i.e., received at least some earnings), worked in their own
business, profession, or worked on their own farm.

Entered Employment Rate - Number of dislocated workers who have entered employment by
the end of the first quarter after exit divided by the number of dislocated workers who exit during
the quarter.

Exit Date - The exit date is the last date of WIA funded or partner service received (except
follow-up services). It is used to determine when to count an individual in a specified reporting
period.

Exiter - Each individual becomes part of an exit cohort, a group who are determined to be
“exiters” within a particular quarter and is looked at together for measurement purposes. There
are two ways to determine exit during a quarter:

       1. A participant who has a date of case closure, completion or known exit from WIA-
          funded or non-WIA funded partner service within the quarter (hard exit) or

       2. A participant who does not receive any WIA-funded or non-WIA funded partner
          service for 90 days and is not scheduled for future services except follow-up services
          (soft exit).

Intensive Service - WIA Section 134(d)(3)(C) states intensive services may include the
following: comprehensive and specialized assessment of skill levels, in-depth interviewing and
evaluation, development of individual employment plan, group counseling, and short term
prevocational services.

                                                38
Layoff Employer – The last employer the dislocated worker worked for.

Non-Exiter – A participant still enrolled in the Dislocated Worker program as of the end of audit
fieldwork.

Retention Rate – Of those who are employed in the first quarter after exit: Number of
dislocated workers who are employed in the third quarter after exit divided by the number of
dislocated workers who exit during the quarter.

Supportive Service - WIA Section 134(d)(4)(G)(e) 2 states funds allocated to local areas may be
used to provide supportive services to dislocated workers who are participating in the program,
and are unable to obtain such supportive services through other programs providing such
services. Supportive services include transportation, utilities, housing assistance, needs related
or dependent care expenses.

Tenure – Length of time a participant spent working at their layoff employer.

Time in program - Period of time from date participant enrolled and was registered in the
Dislocated Worker program to exit date. If participant did not exit, by end of audit fieldwork,
last day of audit fieldwork was used to calculate time in program.

Training Service - WIA Section 134(d)(4) states training services are to be provided to
dislocated workers who (1) are unable to obtain or retain employment, (2) are in need of training
services to successfully participate in the selected program of training, (3) select training directly
linked to employment opportunities, and (4) who are eligible in accordance with the priority
system, if any, in effect. Training services may include occupational skills training, on-the-job
training, workplace training, skill upgrading, and entrepreneurial training.




                                                 39
                                                           APPENDIX B



PARTICIPANT PROFILE STATISTICS


                 Gender and Age
 Age        Males        Females    Combined     Percent
 0-20          1             5          6            2
21-30         22            18         40           11
31-40         43            46         89           25
41-50         58            64        122           34
51-60         40            45         85           23
61-70          8            10         18            5
Total        172           188        360          100




                 Education Level
       Education Level             Number      Percent
Some Grade School                      5           1
Completed Grade School                 1           0
Some High School                      24           7
High School Diploma                  150          42
Some College                          92          25
Bachelor Degree                       64          18
Post College                          24           7
             Total                   360         100




                           40
                                        APPENDIX B CONT’D


         Tenure at Layoff Employment
          Tenure         Number    Percent
Under 6 months              45        12
6 months to 1 year          53        15
1 year to 3 years           94        26
Over 3 years               157        44
Displaced Homemaker         11         3
           Total           360       100


                 Layoff Industry
         Industry        Number    Percent
Service                     71        20
Manufacturing               53        15
Retail                      29         8
Textiles                    24         7
Transportation              25         7
Hospitals                   17         4
Finance                     17         4
Displaced Homemakers        11         3
Public Administration        7         2
Construction                 4         1
Agriculture                  2         1
Unknown                    100        28
           Total           360       100


               Layoff Occupation
      Occupation        Number     Percent
Technical                 115         32
Professional               75         21
Clerical                   48         13
Managerial                 41         11
Services                   31          9
Blue Collar                25          7
Sales                      12          3
Displaced Homemaker        11          3
Unknown                     2          1
         Total            360        100



                        41
                                 APPENDIX C




ETA’S RESPONSE TO THE DRAFT REPORT




                42
